HHS/OIG-Audit-"Psychiatric Outpatient Services: The Arbour-HRI Hospital"(A-01-97-00526)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Psychiatric Outpatient Services: The Arbour-HRI Hospital" (A-01-97-00526)
March 20, 1998
Complete
Text of Report is available in PDF format (408 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1142.
EXECUTIVE SUMMARY:
This report provides the results of our review of outpatient psychiatric services provided by the Arbour-HRI Hospital
(Hospital) during calendar year 1996. The objective of our review was to determine whether psychiatric services rendered
on an outpatient basis were billed for and reimbursed in accordance with Medicare regulations.
Medicare regulations require that each medical record contain sufficient documentation to justify the treatment provided.
In fiscal year 1996 the Hospital submitted for reimbursement about $7.9 million in charges for outpatient psychiatric
services. To determine whether controls were in place regarding outpatient charges, we reviewed the medical and billing
records for five beneficiaries, selected judgmentally, whose outpatient psychiatric charges totaled $100,185. Our analysis
showed that $7,245 or about 7 percent of these charges were not supported by the medical records. Specifically, there was
no evidence that the beneficiary attended the number of group or individual therapy sessions that was indicated on the
bill submitted to Medicare. As a result, charges on the Medicare cost report are overstated.
We recommend that the Hospital continue to strengthen its procedures to ensure that outpatient psychiatric services are
rendered and supported in the medical records.
In its response the Hospital concurred with our recommendation.